                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM                                 I




         In January, 2005, OIG received a request for information from an investigator fiom the U.S.
         Postal Service (USPS) regarding an NSF employee. The investigator stated that he was,
         conducting an investigation into Workers Compensation Fraud involving a U.S. Postal Service
         (USPS) employee and he had received information that this employee was currently employed by
         NSF. The Inspector requested information regarding the employee's current status and position
         with NSF. Our preliminary investigation confirmed that the individual being investigated is an
         NSF employee1.

         Our investigation determined that the USPS's proposed actions against the subject were still
         under appeal and had not been implemented. This provided a reasonable defense for the,
         subject's statements and no additional evidence was identified to prove that the subject
                                                                                                     I
         intentionally misrepresented her employment with USPS.

         Based on this information and the lack of credible evidence to contradict the subject's statement
         it is recommended that no further action be taken regarding this matter.                    I




         Accordingly, this case is closed.

                                                                                                         I




                                                                                                             I




NSF OIG Form 2 (11/02)
